<html>
<title> - OVERSIGHT OF ARMY CORPS OF ENGINEERS WATER MANAGEMENT IN THE APALACHICOLA-CHATTAHOOCHEE-FLINT (ACF) AND THE ALABAMA-COOSA-TALLAPOOSA (ACT) RIVER SYSTEM</title>
<body><pre>[Senate Hearing 113-745]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-745

     OVERSIGHT OF ARMY CORPS OF ENGINEERS WATER MANAGEMENT IN THE 
APALACHICOLA-CHATTAHOOCHEE-FLINT (ACF) AND THE ALABAMA-COOSA-TALLAPOOSA 
                              (ACT) RIVER 
                                 SYSTEM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             July 22, 2013

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys





















                                                        S. Hrg. 113-745

     OVERSIGHT OF ARMY CORPS OF ENGINEERS WATER MANAGEMENT IN THE 
APALACHICOLA-CHATTAHOOCHEE-FLINT (ACF) AND THE ALABAMA-COOSA-TALLAPOOSA 
                              (ACT) RIVER 
                                 SYSTEM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys


                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-876 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 22, 2013
                           OPENING STATEMENTS

Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     1
Rubio, Hon. Marco, U.S. Senator from the State of, prepared 
  statement......................................................   199
Southerland, Hon. Steve II, U.S. Representative from the State of 
  Florida, prepared statement....................................   200

                               WITNESSES

Jackson, Brigadier General Donald E. Jr., Commander, South 
  Atlantic Division, U.S. Army Corps of Engineers................     6
    Prepared statement...........................................     9
    Responses to additional questions from Senator Sessions......    15
Atkins, J. Brian, Division Director, Alabama Office of Water 
  Resources......................................................    87
    Prepared statement...........................................    90
Turner, Judson H., Director, Environmental Protection Division, 
  Georgia Department of Natural Resources........................   172
    Prepared statement...........................................   175
Munson, Gregory M., Deputy Secretary, Water Policy and Ecosystem 
  Restoration, Florida Department of Environmental Protection....   187
    Prepared statement...........................................   189

                          ADDITIONAL MATERIAL

ACF Stakeholders.................................................   202
Letters:
    Department of the Army, Moble District Corps.................   234
    To Chairman Shuster and Ranking Member Rahall in reference to 
      the Water Resources Develpoment Act (WRDA), dated May 13, 
      2013.......................................................   237
    To Chairman Shuster and Ranking Member Rahall in reference to 
      the Water Resources Develpoment Act (WRDA), dated June 3, 
      2013.......................................................   240
    To Secretary Darcy in reference to the Water Supply Act of 
      1958 (WSA).................................................   242
    Department of the Army, Office of the Assistant Secretary 
      Civil Works................................................   244
    State of Alabama, Officer of the Govenor.....................   245
    Congressional Budget Office, Douglas W. Elmendorf, Director..   296
    Rick Scott, Governor of Florida..............................   307
    Department of the Army, Office of the Assistant Secretary 
      Civil Works................................................   309
    Hon. Jo-Ellen Darcy, Office of the Assistant Secretary (Civil 
      Works).....................................................   312
    Manufacture Alabama!.........................................   318
    Alabama Pulp & Paper Council.................................   320
    Apalach-Colo River Keeper....................................   322
    Business Council of Alabama..................................   326
    Alabama Department of Environmental Management...............   328
    Coosa-Alabama River Improvement Association, Inc.............   344
    Georgia Department of National Resources Environmental 
      Protection Division........................................   359
    Water Contingency Planning Task Force........................   375
    Cobb County-Marietta & Water Authority.......................   417
The Wall Street Journal; In Latest War Between the States, 
  Georgia Says Tennessee Is All Wet..............................   428
    .............................................................

 
     OVERSIGHT OF ARMY CORPS OF ENGINEERS WATER MANAGEMENT IN THE 
APALACHICOLA-CHATTAHOOCHEE-FLINT (ACF) AND THE ALABAMA-COOSA-TALLAPOOSA 
                           (ACT) RIVER SYSTEM

                              ----------                              


                         MONDAY, JULY 22, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 p.m. in room 
406, Dirksen Senate Building, Hon. Jeff Sessions (co-chairman 
of the committee) presiding. Present: Senators Sessions and 
Boozman.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Good afternoon.
    Welcome to today's Senate Environment and Public Works 
Committee hearing entitled, Oversight of the Army Corps of 
Engineers Water Management in the Apalachicola-Chattahoochee-
Flint and Alabama-Coosa-Tallapoosa River Systems. Today, the 
Committee will hear from both Federal and State officials about 
the status of the Corps' efforts in the ACF and the ACT basins 
and impacts of those decisions.
    I see my colleagues, Senators Isakson and Chambliss, who 
have been very alert to these issues. We have discussed it at 
length over a period of years. They have been very articulate 
in advocating for Georgia's position on this. Gentlemen, it is 
great to have you. I would be willing to have an opening 
statement from you. You have indicated you would like to submit 
statements for the record and I would be glad to receive them. 
That is your choice.
    Thank you for attending. Indeed, as we have all discussed 
over a period of years, we really need a compact between the 
three States involved and that has been difficult to achieve to 
date.
    [The prepared statements of Senators Isakson and Chambliss 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Sessions. The first panel will include Brigadier 
General Donald E. Jackson, Jr., Commander, South Atlantic 
Division, headquartered in Atlanta, Army Corps of Engineers and 
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army, Civil 
Works.
    General Jackson and Secretary Darcy, thank you both for 
taking time out of your schedules to be here. General Jackson, 
congratulations on your recent promotion to Brigadier General.
    The second panel consists of State officials from three 
States that comprise the ACF and ACT basins, J. Brian Atkins, 
Division Director, Alabama Office of Water Resources; Judson H. 
Turner, Director, Environmental Protection Division, Georgia 
Department of Natural Resources; and Gregory M. Munson, Deputy 
Secretary for Water Policy and Ecosystem Restoration, Florida 
Department of Environmental Protection.
    Given my interest in the hearing, Chairman Boxer and 
Ranking Member Vitter have graciously invited me to serve as 
Co-Chairman. We expect sparse attendance today as the Majority 
Leader has not scheduled any votes today, so many of our 
members will not be returning from the weekend in their States.
    During consideration of the WRDA bill, there were many 
conversations and activities in this Committee and outside 
about concerns with the status of operations at Lake Lanier in 
the ACT system and Lake Allatoona in the ACT system. These 
challenging issues have been facing Alabama, Georgia and 
Florida for decades.
    As Atlanta continues to consume increasing amounts of water 
from these shared and limited water resources, it is imperative 
that all stakeholders have a full understanding of the actions 
the Corps of Engineers has taken or plans to take in the years 
ahead in the region. Officials from all three States will give 
testimony about the impact of the Corps' actions on their 
constituents, industries and ecological resources.
    I intend to ask Secretary Darcy and General Jackson 
questions to understand their plans for the ACF and the ACT 
basins and ask whether and how those plans follow the law, 
including the Water Supply Act of 1958.
    Ultimately, a reasonable resolution of this matter should 
come through an InterState Water Compact agreed to by 
Governors. For that to happen, I believe the Corps must 
implement existing law and not take sides in discussions.
    A primary focus of the hearing will be concerns about the 
Army Corps decisions at Lake Lanier and Lake Allatoona under 
the Water Supply Act of 1958. This important law ``declared it 
to be the policy of Congress to recognize the primary 
responsibility of the States and local interests in developing 
water supplies for domestic, municipal, industrial and other 
purposes.'
    Section B of the Act authorized the Corps of Engineers to 
allocate a portion of Federal reservoirs for municipal and 
industrial water supply. In subsection (d) of the Act, however, 
Congress imposed a requirement that Congress approve any such 
allocation that would ``seriously affect the purposes for which 
the project was authorized, surveyed, planned or constructed or 
which would involve major structural or operational changes.'
    Lake Lanier in the ACF and Lake Allatoona in the ACT 
impound rivers that otherwise flow downstream to communities in 
Alabama, Florida and other parts of Georgia. These communities 
depend upon that steady flow of fresh water for their 
livelihoods and environmental quality. Even though the 
reservoirs were not built for Atlanta's water supply purposes, 
the Atlanta area municipalities have made increasing use of 
those two reservoirs for that purpose, local municipal and 
industrial water supply.
    Just this year, the State of Georgia asked the Corps for a 
280 percent increase in their contractually authorized storage 
allocation for Atlanta's water supply withdrawals from Lake 
Allatoona, almost three times more than their current 
allocation. In addition, this year Georgia has renewed its 
request for water storage at Lake Lanier, seeking as much as 30 
percent of Lake Lanier's storage for direct withdrawals for 
Atlanta's water supply, where there is no current contract in 
place. This issue has raised questions from Florida, 
Apalachicola Bay and other areas.
    How will the Corps handle these requests? That is an 
enormously important question for the entire ACF and ACT 
basins. Clearly, these significant demands from one area have a 
severe impact on downstream communities.
    I would like to thank Chairman Boxer and Ranking Member 
Vitter for suggesting this hearing and their efforts on the 
issue. They desire that all of us work together where possible 
to reach common agreement. On May 16, Chairman Boxer and 
Ranking Member Vitter sent an important letter to Secretary 
Darcy correctly calling for an InterState Water Compact to 
address the ongoing water dispute in the region. They also 
correctly urged the Corps to serve as a neutral facilitator of 
a negotiated solution.
    Regrettably, in my view, the Corps has too often sided with 
Atlanta by accommodating massive water withdrawals to the 
detriment of my constituents in Alabama, as well as communities 
in Florida and other parts of Georgia. Towns like Eufaula, 
Columbus, LaGrange, Dothan, Gadsden, Montgomery, and 
Apalachicola, are all impacted.
    Around the time of the May 16 letter, Chairman Boxer 
committed to me that this Committee, which has jurisdiction 
over the Corps of Engineers, would hold a hearing on this 
topic. She has kept her word by allowing this hearing to occur 
today. I would say this is one of the few opportunities we have 
had, and the people in the region have had, to have witnesses 
from the Corps discuss these issues openly.
    My understanding is that General Jackson will offer an 
opening statement on behalf of the Army Corps and General 
Jackson will primarily respond to questions about technical 
issues and Secretary Darcy will respond to broader policy 
issues.
    Senator Sessions. Before we begin, I would like you to 
agree, if you would, to respond in writing within 30 days to a 
set of limited questions for the record that I would plan to 
submit following today's hearing.
    Ms. Darcy. Yes, sir.
    Senator Sessions. General Jackson.
    General Jackson. Yes, sir.
    Senator Sessions. General Jackson, you can begin your 
opening statement. We thank you.


    STATEMENT OF BRIGADIER GENERAL DONALD E. JACKSON, JR., 
    COMMANDER, SOUTH ATLANTIC DIVISION, U.S. ARMY CORPS OF 
                           ENGINEERS

    General Jackson. Senator Sessions, as you mentioned, I am 
Brigadier General Donald Jackson, Commander of the U.S. Army 
Corps of Engineers South Atlantic Division. I am honored to 
testify before you today on the status of the Corps Water 
Management in the Apalachicola-Chattahoochee-Flint, ACF, and 
the Alabama-Coosa-Tallapoosa, ACT, river systems.
    The ACF basin originates in northeast Georgia, crosses the 
Georgia-Alabama border into central Alabama and follows the 
State line south until it terminates in Apalachicola Bay, 
Florida. There are five Federal reservoirs and ten non-Federal 
reservoirs in the ACF system.
    The ACT basin originates just north of the Tennessee-
Georgia border extending to central north Georgia, crosses the 
Georgia-Alabama State line into north Alabama and continues 
across central and south Alabama before terminating in Mobile 
Bay. There are five Federal reservoirs and 11 non-Federal 
projects owned by Alabama Power Company in the ACT system.
    Corps' Mobile District is currently updating the basin-wide 
Master Water Control Manuals for the ACT and the ACT River 
systems through an open and deliberative process that includes 
preparation of an environmental impact statement for each 
system and solicitation and consideration of comments from the 
public and all interested stakeholders.
    The purpose of revising the manuals is to develop and 
implement updated, basin-wide operational schemes for the 
Federal projects in the two basins in accordance of their 
authorized purposes, in light of current conditions and 
applicable law.
    Water control manuals assist Federal water managers in 
operating individual and multiple interdependent Corps 
reservoirs on the same river system consistent with applicable 
law. Generally, a water control manual will include technical, 
hydrologic, geographic, demographic, policy and other 
information.
    The Corps uses these manuals to inform and guide its 
decisions on the management of waters in our reservoirs, which 
typically involve different operating regimes for times of high 
water, low water and normal conditions. The manuals contain 
water control plans for each of the reservoirs in the basin 
systems and specify how the various reservoirs will be operated 
as a system.
    As part of the update process, the Corps is preparing an 
EIS for each of the two Federal systems and is soliciting and 
considering comments from the public and interested 
stakeholders. These actions will result in updated plans and 
manuals for both systems that are consistent with applicable 
law and take into account changes in basin hydrology and 
demands from years of growth and development, new/rehabilitated 
structural features, legal requirements and environmental 
issues.
    In June 2011, the United States Court of Appeals for the 
Eleventh Circuit held that municipal and industrial water 
supply for the city of Atlanta, Georgia is an authorized 
purpose of the Lake Lanier project under the Rivers and Harbors 
Act of 1946 and remanded the matter to the Corps to determine 
the extent of its legal authority to accommodate the State of 
Georgia's request in 2000 for additional water supply 
withdrawals at and below Lake Lanier.
    On October 12, 2012, the Corps published a notice 
soliciting public comment on revising the scope of the EIS for 
the ACF water control manual update in light of these 
developments. The Corps published a revised Final Updated 
Scoping Report in March 2013, providing notice that the Corps 
is evaluating additional water supply alternatives within the 
scope of the ACF water control manual updated and EIS, 
including Georgia's updated request for water supply.
    The Corps has not yet decided on a proposed mode of ACF 
system operations. The proposed operations will be identified 
in the draft water control manuals and EIS. These documents 
will be made available for public comment before any final 
decision is made on how the system should be operated.
    The ACF Water Control Manual update and the EIS are being 
prepared in accordance with Corps regulations, the National 
Environmental Policy Act and all applicable law. As part of 
this effort, the Corps will consult with other Federal agencies 
as required, including consultation with the U.S. Fish and 
Wildlife Service.
    The draft water control manuals and EIS will be released 
for public review and comment in accordance with NEPA and 
requirements in the Corps regulations. Similarly, the draft 
water control manuals and EIS will undergo quality control/
quality assurance reviews to include agency technical review 
and independent external peer review.
    The Corps is currently in the technical analysis stage of 
the ACF manual update. We expect to reach the next major 
milestone in the process about 2 years from now, when we file a 
draft EIS with the Environmental Protection Agency and release 
the draft water control manual and draft EIS for public review 
and comment.
    The ACT Water Control Manual update and EIS are also being 
prepared in accordance with applicable law. The draft water 
control manual and EIS were released for public review and 
comment on March 1, 2013. The Corps is currently evaluating the 
public review and independent external peer review comments it 
received on these draft documents.
    The draft Water Control Manual and EIS for the ACT reflect 
the existing water supply storage at Lake Allatoona pursuant to 
contracts entered under the Water Supply Act of 1958. Those 
contracts remain valid and the operations we are considering in 
the water control manual update process assume that withdrawals 
will continue as contemplated under these contracts.
    In summary, the purpose of both the ACF and the ACT manual 
updates is to improve the information and guidance that the 
Corps uses to operate the Federal dams in these basins in 
accordance with applicable law. We operate the dams in each 
basin as a system and will continue to do so.
    The updates will take into account changes in basin 
hydrology and demands from years of growth and development, 
new/rehabilitated structural features, legal requirements and 
environmental issues. Throughout this process, the Corps 
encourages the active participation of all stakeholders, and 
the Corps will carefully consider all comments received.
    Senator Sessions and members of the Committee, this 
concludes my testimony. I look forward to continuing to work 
with the Committee on these very important issues and answering 
any questions you may have.
    [The prepared statement of General Jackson follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
       
    Senator Sessions. Thank you, General Jackson.
    Secretary Darcy.
    Ms. Darcy. Senator, I do not have a prepared statement but 
I am happy to be here to support General Jackson and answer any 
questions you have about the update for the manuals.
    Senator Sessions. Let's look at a few of the fundamentals. 
You cite, General Jackson, that you assume the contracts remain 
in force. I believe you indicated that the flow from Lake 
Allatoona would continue. Is that correct?
    General Jackson. The water control manual update for the 
ACT only recognizes existing contracts in effect today and do 
not reflect any increased requests for water withdrawals by the 
State of Georgia out of Lake Allatoona.
    Senator Sessions. Are you saying that the established 
amount is the amount in that contract or the amount actually 
being withdrawn now?
    General Jackson. Sir, we recognize the amount that is in 
the contract.
    Senator Sessions. The way this historically arose I have 
discovered is that Congress was concerned about being in a 
position of financing water supply projects for cities, 
counties and areas. The policy was clear that Congress would 
not pay for developing peoples' water systems. In cities like 
Birmingham, they pay for their own.
    This is a chart that shows a quote from Mayor Hartsfield, 
the famous Atlanta Mayor, back in 1948 about these projects and 
whether or not he would contribute and whether or not he wanted 
it to be done so that Atlanta could participate in getting 
water from it. He said, ``The city of Atlanta has many sources 
of potential water supply in north Georgia. Certainly in view 
of other possible sources of Atlanta's future water, we should 
not be asked to contribute funds to a dam which the Army 
engineers have said is vitally necessary for navigation and 
flood control on the balance of the river.'
    It would seem to me, General Jackson, that Atlanta's Mayor 
at the time said they would choose not to participate in this 
and did not desire any water from the system. Is that the way 
you would understand that quote?
    General Jackson. Sir, I apologize. I am not familiar with 
that quote. I do not have a response for that.
    Senator Sessions. It is pretty obvious to me you need to be 
thinking about it as you go through this process.
    Gerald Ford was a Member of Congress about this time. He 
was a frugal man and he raised this question at the hearing: 
``Is it not conceivable in the future that the city of Atlanta 
will make demands on the Corps for certain water at certain 
times because of the needs of Atlanta when at the same time, it 
will be for the best interests of the overall picture, power, 
navigation, flood control, to retain the water in the 
reservoir?' Are you familiar with that question?
    General Jackson. No, sir, I am not.
    Senator Sessions. Colonel Potter replied, ``We would have 
to come back, I believe, to Congress to alter the authorization 
of that project were it a major diversion of the water. We take 
a very dim view of changing a project to the subsequent needs 
without Congress having a hand in it.'
    That sounds like pretty good policy, does it not? If 
Congress authorizes a dam for a series of purposes, the Corps 
of Engineers does not have the authority to alter that purpose, 
does it?
    General Jackson. That is correct, sir. We follow the 
authorized purpose of our projects as directed by Congress and 
the authorizing legislation.
    Senator Sessions. That is what we are talking about. We 
have some concern about that with regard to Allatoona 
Reservoir. First, let me ask, you support, I suppose the goal, 
I think most of us do, that there be a compact between the 
Governors? That is what Chairman Boxer and Ranking Member 
Vitter said in their letter to you. I think most of us advocate 
that. Is it your belief that is the best way to fix the 
problem?
    Ms. Darcy. Yes, Senator, that has been the longstanding 
view of the Army, that a compact between the three impacted 
States would be the best resolution for this issue.
    Senator Sessions. With regard to Cobb County and the Lake 
Allatoona Reservoir, there is a contract, is there not, 
executed in 1963 that allows, in effect, 4.6 percent of the 
reservoir to be utilized for water resources for Cobb County?
    General Jackson. Senator, there is a contract in place. I 
am not familiar with the exact numbers of the withdrawal but 
there is a contract in place.
    Senator Sessions. You need to know that. It was allocated 
just over 13,000 acre feet in that contract, is that correct? 
Do you know?
    General Jackson. Sir, I apologize. I am not familiar with 
the exact numbers of the withdrawal amount.
    Senator Sessions. That is about what it is as I read it. 
Now they are proposing a new contract of 14 percent, three 
times that amount. Are you aware of that?
    General Jackson. Sir, I am aware of a request submitted to 
Ms. Darcy by Governor Deal for increased water withdrawals at 
Lake Allatoona.
    Senator Sessions. Those increased withdrawals could 
effectively amount to reallocating the purposes of that by the 
reservoir from its original constructed purpose by the Federal 
Government, could it not?
    General Jackson. Sir, we are in the process right now, as I 
mentioned before, of completing the water control manual for 
the ACT system based on the authorized purposes as currently 
outlined and taking only into account those storage agreements 
currently in effect. That is what we have agreed to do and that 
is how we are proceeding with the water control manual update.
    Senator Sessions. Fill me in on that a little bit. You are 
redoing your manuals consistently with the contract that is in 
place, is that what you're saying?
    General Jackson. That is correct, sir.
    Senator Sessions. That would be the 4.6 percent of the 
reservoir or whatever is in that contract?
    General Jackson. Yes, Senator, whatever is reflected in the 
current contract.
    Senator Sessions. Secretary Darcy, are you aware that 
periodically over the years Congress has altered these kinds of 
contracts through explicit legislative action if they were to 
be changed?
    Ms. Darcy. Yes, it would take an act of Congress in order 
to change the project purpose.
    Senator Sessions. I know if our Governors can reach an 
agreement, I am sure that our Senators would reach an 
agreement. We could pass such legislation necessary to fix the 
disputes that we have.
    Are you aware, General Jackson, that Cobb County is drawing 
far more water today from that reservoir than is allowed under 
the contract?
    General Jackson. Sir, we monitor withdrawals from Lake 
Allatoona in support of the water supply contracts on a routine 
basis. We expect all users who are abiding by the water supply 
contracts to follow those water supply contracts. When we find 
out they are exceeded, we notify the individuals in writing and 
let them know they have exceeded their water supply contracts. 
We continue to monitor that and work with the Department of 
Justice for any adjudication that needs to occur.
    Senator Sessions. You acknowledge that according to Corps 
policy, the amount of water taken out by Cobb County far 
exceeds the contract amount?
    General Jackson. Sir, I am aware that they have been 
exceeded in the past but I am aware currently they are within 
the terms of their contract.
    Senator Sessions. You believe they are within the terms of 
the contract?
    General Jackson. That is my understanding at present, yes, 
sir.
    Senator Sessions. Are you counting return flow downstream 
or not in that evaluation?
    General Jackson. We don't attribute return flows giving 
them credit for the portion of the contract they have. We do 
monitor return flows but only as general basin inflows inside a 
water-controlled basin. The folks of Cobb County do not get 
credit for return flows into Lake Allatoona as a result of 
their contract.
    Senator Sessions. That is my understanding of Corps policy 
nationwide.
    General Jackson. Yes, sir.
    Senator Sessions. That is an important question.
    We have a pretty big difference of opinion. I hope you are 
correct in saying Cobb County is operating consistently at 
their contract level, but I have been informed they are well 
above the contract level. I was informed that during the 2007 
drought, by the Corps' own calculation, Cobb County was using 
three times more storage place for water at Lake Allatoona than 
the contract allowed. It was allocated just over 13,000 acre 
feet and it was using over 39,000 acre feet. At 39,000 acre 
feet, that is 14 percent of the Lake's conservation pool and 
the Corps had to cut back on hydropower generation to protect 
that supply. Are you aware of that?
    General Jackson. Senator, as I mentioned earlier, I am 
aware of previous infractions and we have notified the contract 
holder in writing of its excedences and we continue to monitor 
on a daily basis what is taken in and out of the lake as a 
result of those contracts.
    Senator Sessions. Would you acknowledge that at a time of 
drought, as occurred in 2007, exceeding substantially the 
amount of withdrawals would be particularly problematic for 
downstream individuals depending on that water flow?
    General Jackson. I would agree that in periods of drought, 
there is significant impact up and down the basin to all users. 
Any excedences would certainly cause additional problems for 
users downstream.
    Senator Sessions. I would agree. If you make an operational 
change in that water supply flow with Allatoona, it would be 
require congressional approval, would you agree?
    General Jackson. As laid out for us in the Water Supply Act 
of 1958, any operational change we make as part of our water 
control manual update would remain, at this time, under the 
delegated discretion of the Chief of Engineers, assuming it 
does not include a major structural change, a major change in 
operation or a significant impact to the operational purposes 
for any of the authorized purposes for that reservoir.
    Senator Sessions. Would you repeat that? I am not sure I 
fully got that. Will you repeat what you said? I am not sure I 
fully understood that.
    General Jackson. You asked me about a reallocation of 
water?
    Senator Sessions. Yes.
    General Jackson. What I referred to is in the water control 
manual update we are currently doing, I am not sure. If you 
could rephrase the question, I want to make sure I answer your 
question correctly.
    Senator Sessions. I am not sure I can do that. Actually, I 
was asking you if there was a major operational change in water 
withdrawal by Cobb County or anyone else would it require 
congressional approval? The Corps of Engineers is not empowered 
to make those kinds of policy decisions.
    General Jackson. Any major changes or effects that 
fundamentally depart from the congressional intent of that 
particular project would require congressional authorization.
    Senator Sessions. The Water Supply Act says, among other 
things, that Congress must approve a major operational change, 
I believe is the phrase.
    I am informed that Cobb County, by its own admission, has 
exceeded for decades the contractual amount of water storage 
and they basically claim that their return of the water counts 
and therefore, they are entitled to do it and intend to keep on 
doing it. This has been going on for quite a long time, 
decades, and the Corps had done nothing about it. This is 
causing some unease downstream. That is our problem. Do you 
dispute that they have drawn more than the Corps policy allows 
consistently?
    General Jackson. All I can do is refer to my previous 
comment. I have been made aware of previous excedences which we 
have addressed in written correspondence with Cobb County.
    Senator Sessions. When you get back to Atlanta, you should 
be able to ascertain these amounts of flows and withdrawals. 
Would you submit a report to us setting forth how much has been 
withdrawn from that reservoir since the contract was in force?
    General Jackson. Yes, Senator.
    Senator Sessions. One of the things that concerns us is 
when it appears contracts are not being enforced, the Corps may 
be overlooking its deep fundamental responsibility to deal with 
the multi-State problem that has impacts throughout the region. 
Therefore, a Corps agreement with one city, county or State has 
to reflect the impact it would have on the other areas of the 
State.
    Really, that is why Congress maintained and kept for itself 
final authority to amend the congressionally passed purpose of 
these reservoirs. If it is changed, Congress would change it 
and it would represent a national decision, not a local 
decision. Do you think that is sound policy?
    General Jackson. I believe as spelled out in the Water 
Supply Act of 1958, that is sound policy.
    Senator Sessions. The environmental impact statement, if 
you change the manuals, the flow rate and the withdrawal rate, 
an environmental impact statement is required?
    General Jackson. Yes, Senator, it is.
    Senator Sessions. I have been informed that you intend to 
use the contractual amount as the authorized amount when you do 
the environmental impact statement, but if the historical flow 
coming out of there is greater and that withdrawal rate is 
going to be approved in the future, wouldn't you have to do an 
environmental impact statement on the larger flow rather than 
the contract flow?
    General Jackson. I am assuming you are talking about the 
ACT Water Manual update?
    Senator Sessions. Yes.
    General Jackson. We are basing our water control manual 
update on what is in the contracted amount.
    Senator Sessions. What if you take out more than that? Are 
you telling me you're going to stay at that contract amount?
    General Jackson. Senator, yes, I am.
    Senator Sessions. Let me ask you about the modified fall 
releases under the proposed Lake Allatoona manual. The Corps' 
decision or effort to alter the elevation levels in the Lake 
from October 1 through November 15 of each year, would simply 
extend a recreation system at Lake Allatoona, but fall is the 
dry time of the year and can have a big impact downstream.
    In other words, you maintain high levels of the Lake from 
October through mid November through retaining water, not 
allowing it to flow as you have before and that could have a 
significant impact downstream during the fall season which is 
traditionally dry. If it follows a dry summer, it can be 
particularly problematic.
    Why would you want to change that and reduce the flow 
downstream at that time of the year?
    General Jackson. I am not intimately familiar with all the 
details of that. I would have to refer those to my technical 
experts and reply in writing to the Committee.
    Senator Sessions. This would be very important to us 
because there is a good deal of concern on that. It seems to me 
it would violate the common sense objective that the point of a 
reservoir is to store water so it is available for release when 
there is a shortage of water downstream.
    Lake Lanier, in light of the unequivocal congressional 
testimony by the Corps officers in the 1950's and the passage 
of the 1956 Act, the Act actually amended the flow to 10 
million gallons per day by congressional action.
    I am concerned and wouldn't it be consistent with that 
previous precedent that Congress would be called upon to 
approve or not, Lake Lanier allowing withdrawal of 170 million 
gallons a day in water. Wouldn't Congress need to be involved 
in approval of that?
    General Jackson. I am not quite sure I understand your 
question. Could you please repeat the question?
    Senator Sessions. In 1956 after the lakes had been built, 
there was a desire to get more water from Lake Lanier. Congress 
approved 10 million gallons per day in withdrawal from the 
lake. Now it appears we are talking about 170 million gallons 
per day. Wouldn't that take congressional approval for such a 
large increase?
    General Jackson. It is my understanding Congress has 
delegated to us authority to make certain changes 
administratively without additional legislation as long as it 
does not require or cannot involve a major structural change, 
major operational change or seriously affect any of the 
authorized project purposes.
    Senator Sessions. In 1956, you apparently felt it was 
necessary to get approval for 10 million gallons per day. It 
seems to me if you jumped that to 170 million gallons per day, 
you for sure ought to get congressional approval. Would you 
agree?
    General Jackson. I can only follow my interpretation and 
understanding of the authority we have under the Water Supply 
Act of 1958. That is the process we are following now as we 
take a look at Lake Lanier and the ACF system.
    Senator Sessions. With regard to Lake Lanier, we have the 
Eleventh Circuit opinion. It has been cited as a victory for 
the Georgia position and I suppose it is in some ways but also, 
in a footnote, it was quite clear that it only allows more 
releases of water from Lake Lanier if there is a withdrawal of 
water downstream for Atlanta or the other areas in the 
metropolitan area. Is that the way you understand the decision?
    General Jackson. My understanding of the decision was that 
it authorized water supply as an authorized purpose for Lake 
Lanier.
    Senator Sessions. That is an overstatement of it, I think, 
and you need to know this. You need to go back and have your 
lawyers look at it because it explicitly did not approve direct 
withdrawals of water from the reservoir. It indicated that 
water could be released from the reservoir to flow downstream 
if it was needed downstream to be captured for water supply in 
the region. Do you understand it that way?
    General Jackson. I will have to refer to my lawyers to make 
sure that I do understand it correctly.
    Senator Sessions. You should talk to your lawyers and make 
sure your lawyers are thinking correctly too, because a bit of 
his memorandum I think goes beyond what the opinion said.
    I would offer for the record some analysis we did of the 
memo by Mr. Stockdale, the Chief Counsel for the Corps. We 
questioned some of the opinions in his memorandum. Without 
objection, it will be accepted.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Sessions. The downstream areas, Florida and Alabama 
particularly, have been concerned about a possible bias of the 
Corps toward Atlanta on these water issues over quite a long 
time. It is causing a number of problems.
    Will you agree to take a close look at the letter submitted 
by Chairman Boxer and Ranking Member Vitter and the comments 
filed by the Alabama and Florida stakeholders and not favor any 
one State but follow the law as plainly written?
    General Jackson. We follow all of the authorized purposes 
for the system and all the applicable laws that are 
appropriate. We do consider all comments and work 
collaboratively up and down the system as we work to make 
decisions on our operations manuals as they are being 
developed.
    We will, in fact, consider all comments as I mentioned in 
my statement from members of the public and stakeholders in 
regard to these issues.
    Senator Sessions. I am asking a little more than that. I am 
saying will you ensure that you follow the recommendations of 
Chairman Boxer and Ranking Member Vitter and not favor any one 
State but follow the law?
    General Jackson. Yes, sir, we will follow the law.
    Senator Sessions. Would you agree that it is not 
permissible under the law to take the water first and then get 
a legal authority later?
    General Jackson. We follow the authorized purposes and what 
is represented to us in law. That is how we will work our 
alternatives for water that would be withdrawn to meet any 
requests or project purposes.
    Senator Sessions. One of the questions suggested from 
Florida is this. Does the Corps agree with the U.S. Fish and 
Wildlife Service's assessment that projected increases in 
Georgia's consumptive uses will increase the frequency and 
duration of low flows in Florida's Apalachicola River?
    General Jackson. I am not quite sure I understand.
    Senator Sessions. Do you agree with the Fish and Wildlife 
Service's assessment that the increases in Georgia's 
consumptive uses of water, withdrawal of water, will increase 
the frequency and duration of low flows in Florida's 
Apalachicola River?
    General Jackson. Senator, I have not seen that Fish and 
Wildlife Service opinion.
    Senator Sessions. You can get back with us on that, but I 
would note that is the Fish and Wildlife Service's opinion. It 
seems pretty obvious.
    Has the Corps determined the maximum amount of water that 
Georgia can consume without affecting the downstream?
    General Jackson. No, Senator, we have not. That is part of 
what we will be doing in our water control manual.
    Senator Sessions. How will you do that? What kind of 
testimony or evaluation will occur to determine the impact 
downstream?
    General Jackson. We will do a complete environmental impact 
study as part of our water control manual update process. We 
will take in information from all affected parties up and down 
the water basin. That will be the basis for what we use to 
develop our alternatives for consideration for our water 
control manual operational updates.
    Senator Sessions. With regard to withdrawals from Lake 
Lanier and Lake Allatoona, Georgia is violating your contract 
or otherwise having favorable benefits, do you understand how 
that can undermine the ability of the Governors of Florida and 
Alabama to negotiate with the Governor of Georgia?
    In other words, if the Governor of Georgia is able to 
obtain the kind of withdrawal rights he or she would want, they 
have little incentive, wouldn't you agree, to negotiate some 
sort of permanent agreement with Florida and Alabama?
    General Jackson. I will attempt to answer that, Senator. We 
expect any water supply user who has a contract to follow the 
guidelines set forth in their contract. I don't think I am the 
right person to determine whether or not Governors could or 
wouldn't get together to discuss what actions they might take 
in the future.
    Senator Sessions. I would sum it up this way. It is hard to 
have negotiations if we are looking the other way on the 
withdrawal rates from those two lakes and the Corps of 
Engineers is allowing Georgia to get a flow larger than they 
would otherwise be entitled to. It is difficult to have 
negotiations with Florida and Alabama because otherwise they 
have gotten what they wanted.
    I think you should think about that. Maybe Secretary Darcy, 
you could comment on that but it is a very real thing. That was 
explained to me previously as one of the impediments to being 
able to get an agreement among the States.
    Ms. Darcy. Senator, I think because of our ongoing look at 
the water control manuals and the fact they will not be 
completed, one of them will not be completed even for public 
comment until 2 years from now that within those 2 years 
hopefully the States will be able to come to some agreement 
because there will not be any finality to any kind of 
withdrawals between now and then.
    Senator Sessions. Thank you.
    I have a statement for the record from Senator Vitter, the 
Ranking Member. I also have a letter from Governor Scott of 
Florida who has been a very strong advocate on this issue and 
takes it very seriously. The same is true for Congressman Steve 
Sutherland of Florida. They have both been strong about this 
issue and are deeply concerned. I would offer statements from 
both of them for the record.
    I would also ask consent to enter the statement from 
Senator Nelson. He also has been very aggressive on this issue 
and has discussed legislation and other actions that might 
occur. I know Senator Nelson is deeply engaged in it.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Sessions. Senator Rubio, I understand, is having 
field hearings in Florida about this subject. He feels strongly 
about it.
    I would share with you that it is a matter that is very 
important. You are in a very difficult position. I would urge 
you to make up your mind and just follow the law as it is. I 
appreciate what I think you are saying, General Jackson, that 
you are going to comply with the contract because I don't see 
how we could have a contract with Cobb County and allow it to 
be systematically violated substantially over a long period of 
time and then somehow reach an accord with them that Alabama 
could accept and that is the level of withdrawals that are 
going to be allowed.
    Senator Boozman, thank you for joining us on a Monday 
afternoon. There are not many in town but we are glad you are 
here at your post.
    Senator Boozman. Thank you.
    We appreciate having you all here and appreciate working 
with you.
    General Jackson was in Little Rock and I had the 
opportunity to work with him very, very closely. He did an 
outstanding job there and I know he has done an outstanding job 
at his present post.
    It is always good to see you, Secretary Darcy. We do 
appreciate your hard work.
    When you talk to the future, water is always No. 1 or two. 
Energy and water are the two things that are the drivers. I 
think this problem, and it really is a problem and not an easy 
problem at all, but certainly illustrates how important these 
things are.
    We appreciate your having the hearing and shedding further 
light, Senator. Thank you all.
    Senator Sessions. As an Alabamian, I think I speak for all 
Alabamians and the Governor that we understand north Georgia 
needs water and we can work this out. We have gotten close a 
couple of times to reaching an agreement.
    Then one side or the other wins some lawsuit, the momentum 
seems to switch and they harden their position. No agreement is 
reached and usually some lawsuit turns the other way before 
long. We continue without an agreement. I hope that you will 
help us facilitate neutrally an agreement.
    I would offer for the record an index of organizations and 
persons who filed comments on the ACF master manual process, 
including the Alabama Office of Water Resources, Apalachicola 
Bay Chamber of Commerce, Apalachicola River Keepers and also a 
document provided by the ACF Stakeholders Group, a diverse 
group of cities, counties, industries, businesses, fishermen, 
farmers, environmental, conservation, recreational groups from 
all three States working together to achieve a common goal.
    We also have written comments of the Coosa Alabama 
Improvement Association submitted to the Army Corps of 
Engineers Mobile District and written comments recently 
submitted to the Army Corps by other organizations in Alabama 
concerned about the ACT master manual. You will have a lot of 
documents to read.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sessions. Is there anything else you would like to 
share before we move to the next panel?
    Ms. Darcy. No, but thank you, Senator, for this hearing.
    Senator Sessions. Thank you all and I appreciate the 
opportunity to ask these questions.
    We will now have the second panel: J. Brian Atkins, 
Division Director, Alabama Office of Water Resources; Judson H. 
Turner, Director, Environmental Protection Division, Georgia 
Department of Natural Resources.
    You are a Bradley Arant attorney, Mr. Turner, previously?
    Mr. Turner. Previously, yes, sir.
    Senator Sessions. I will have to be careful asking you any 
questions.
    We also have Mr. Gregory Munson, Deputy Secretary, Water 
Policy and Ecosystem Restoration, Florida Department of 
Environmental Protection.
    Gentlemen, if you would share your comments with us at this 
time, we would be pleased to receive them.

STATEMENT OF J. BRIAN ATKINS, DIVISION DIRECTOR, ALABAMA OFFICE 
                       OF WATER RESOURCES

    Mr. Atkins. Thank you, Senator Sessions.
    Senator Sessions and members of the Committee, the State of 
Alabama believes it is vital for Congress to retain its 
authority under the Water Supply Act of 1958 to approve any 
substantial reallocation of Federal reservoirs for local water 
supply uses.
    Alabama is keenly interested in this issue because it is 
downstream from major Federal reservoirs in the Alabama-Coosa-
Tallapoosa River Basin, also known as the ACT River Basin, and 
the Apalachicola-Chattahoochee-Flint River Basin, also known as 
the ACF Basin.
    Increasing use of those reservoirs to serve local water 
supply needs in the Atlanta leads to lower downstream flows in 
both basins. Those lower flows inflict substantial 
environmental and economic damage on Alabama communities and 
Alabama citizens.
    Lake Allatoona in the ACT Basin and Lake Lanier in the ACF 
Basin were both constructed in north Georgia in the middle part 
of the 20th Century for three primary purposes: flood control, 
hydropower generation and downstream navigation support. These 
purposes are legislatively mandated in the bills authorizing 
construction of the reservoirs.
    As the Atlanta metropolitan area has grown, water supply 
providers in that region have failed or refused to construct 
their own water supply reservoirs and thus avoided expending 
hundreds of millions of dollars in construction costs. Instead, 
providers in the Atlanta metropolitan area have made massive 
withdrawals from the Federal reservoirs and the Corps has 
allowed these withdrawals.
    In doing so, the Corps has bypassed the required 
congressional approval. In the Water Supply Act of 1958, 
Congress expressly recognized that the obligation to meet water 
supply needs rests primarily with the State and local 
governments. While Congress in that Act contemplated some 
limited use of Federal reservoirs for water supply, Congress 
expressly reserved the right to approve any water supply usage 
that would involve major operational changes or cause serious 
effects to the authorized project purposes.
    Rather than go through the appropriate congressional 
process to seek permission for water supply usage at Lake 
Allatoona and Lake Lanier, Atlanta area interests have simply 
taken water without any legal authority to do so. It has been a 
take first, seek permission later mindset and much to the 
dismay of Alabama, the Corps of Engineers has been complicit in 
this improper water grab by taking no steps to curtail the 
unauthorized use of Federal resources.
    It is even worse than that. Not only has the Corps failed 
to prevent the massive and illegal water supply uses of these 
two Federal reservoirs, but the Corps also has taken steps to 
curtail operation of the projects for their congressionally 
authorized purposes in order to protect Georgia's water supply 
usage at the expense or the downstream States, Alabama and 
Florida.
    Furthermore, the Corps has given a pass to Atlanta's 
contractual violation of the water storage agreements and 
permitted excess water storage in violation of its agreements 
and of the Water Supply Act. The results of this course of 
conduct have imposed serious costs and harm on downstream 
communities which were most severe during the 2007 drought.
    Water quality in Alabama lakes and river segments 
deteriorated badly. Local Alabama water supply providers had to 
incur huge costs to treat the degraded water in order for it to 
be fit for public consumption. Levels of Alabama reservoirs 
dropped sharply inflicting major economic damage on Alabama's 
recreation industry.
    Numerous industrial plants were threatened with shut down 
because it became more and more difficult for those companies 
to meet their environmental permit requirements as a result of 
the degraded water in the rivers. The electric grid in Alabama 
was also threatened due to those types of environmental permit 
issues.
    What is happening is crystal clear. Georgia wants Alabama 
to take less water than it has always received historically so 
that Atlanta may take more water in order that Atlanta may 
expand at the expense of downstream communities and without 
regard to the ecological effect.
    If Alabama simply wants to maintain its historical usages 
and flows, then it will have to spend hundreds of millions of 
dollars on infrastructure so Atlanta does not have to pay for 
its own development.
    Congress clearly understands that many Federal reservoirs 
sit in basins that cover multiple States. The need for 
congressional approval of significant water supply uses of 
Federal reservoirs is vital to ensure that a proper balance is 
struck.
    Upstream communities should not be allowed to disrupt 
settled usages and expectations of downstream communities 
through unauthorized and improper usage of Federal reservoirs 
built with Federal taxpayer dollars.
    Senator Sessions, members of the Committee, the Corps and 
Atlanta have ignored the plain language of the Water Supply Act 
that would have required congressional approval for the water 
grab that has taken place. Alabama urges this Committee to 
strengthen the language of the Water Supply Act so that 
Congress' proper role in controlling local water supply uses of 
Federal reservoirs is maintained.
    Thank you.
    [The prepared statement of Mr. Atkins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Sessions. Thank you very much.
    Mr. Turner?

    STATEMENT OF JUDSON H. TURNER, DIRECTOR, ENVIRONMENTAL 
  PROTECTION DIVISION, GEORGIA DEPARTMENT OF NATURAL RESOURCES

    Mr. Turner. Good afternoon, Senator Sessions and members of 
the Committee. My name is Jud Turner and I am the Director of 
the Environmental Protection Division of the Georgia Department 
of Natural Resources.
    Georgia EPD is the State agency responsible for managing 
the State's surface waters and groundwater.
    I appreciate the opportunity to share Georgia's 
perspectives on the Corps of Engineers' management of the 
Federal reservoirs in the ACF and ACT basins. I have submitted 
written testimony that I ask to be submitted for the record. I 
will not read that testimony in full but make a few broad 
points from it.
    Senator Sessions. We will make it a part of the record.
    Mr. Turner. Thank you, sir.
    There are two principal reasons I believe we are at this 
juncture with respect to the interState river basins at issue. 
First, for much of the last 23 years, Senator Sessions, you 
referenced this, the Corps has been involved and often thwarted 
in finalizing new water control manuals for the ACF and ACT 
basins as required by law.
    Second, recent multi-year droughts that were longer and 
more severe than any we have seen before have increased the 
scrutiny and concern of stakeholders in all three States. Had 
the Corps been able to update the water control manuals before 
now, it might have better managed the reservoirs to the benefit 
of all users, upstream and down.
    We might also have answers to some of the questions that 
Alabama and Florida have raised in their testimony today. 
Instead, often paralyzed by litigation and political pressure, 
and unaided by environmental and economic studies that would 
have accompanied properly developed plans, the Corps has 
operated on an ad hoc and trial and error basis.
    Each State has had its complaints regarding the Corps' 
operation of these reservoirs. This paralysis has blocked the 
development of complete, up to date plans, and has not served 
any State well. Whether one is talking about the ACT or the ACF 
basins, the perception among stakeholders in downstream States, 
as evidenced by testimony today submitted by representatives 
from Florida and Alabama, the belief is the Corps and water 
users in Georgia are responsible when stream flows fall.
    The Corps, as this narrative goes, should release more 
water and all the problems would be solved. While I can 
empathize that people are hurt by drought, we too feel this 
pain in Georgia, the facts simply do not support that Georgia 
or the Corps are to blame for these effects.
    Per capita water consumption in the metropolitan Atlanta 
area is less than per capita water use in Montgomery, in 
Mobile, in Birmingham and in Tallahassee. The metropolitan 
Atlanta's total consumption of water from Lake Lanier and the 
Chattahoochee River in 2011 was a net 171 cfs. That is less 
than 1 percent of the average flow in the Apalachicola River at 
the State line in a normal year and less than 2 percent of that 
flow in a drought year.
    In the ACT Basin, the metro Atlanta water consumption is 
around 1.2 of the average flow at the Coosa River at the State 
line and around one-half of 1 percent if you measured the flow 
at the Alabama River.
    The facts are that metro Atlanta's use has almost no effect 
at all on the flow into Alabama and Florida.
    The downstream perceptions about the effects of the Corps 
operations are similarly misplaced. Take the stream flow in the 
Apalachicola River. That is an instance where the Corps 
operations have helped, not hurt, Florida. During the last two 
drought cycles, natural inflow into the ACF Basin has fallen to 
approximately 50 percent of normal levels. The Corps provided a 
great deal of augmentation from storage to mitigate the effect, 
but it can only do so much.
    Had the Corps drained all the conservation storage in the 
ACF Basin over the course of the drought to provide the maximum 
possible flow augmentation, it would have only replaced 4 
percent of the natural 50 percent drop in the natural basin 
inflow.
    The Corps has operated the Federal reservoirs in Georgia to 
a State line flow target at Jim Woodruff Dam that was much 
above the amount of water entering the basin. For recent 
drought years in particular, take 2006, 2007, 2011 and 2012, 
the augmentation numbers are staggering.
    From 2006 through 2007, the Corps used 850,000 acre feet of 
storage drawn down to meet the State line flow requirement at 
Woodruff. That target was often 5,000 cfs when natural inflow 
was 3,000 csf or lower for extended periods of time. Often, 
this is 2,000 cfs of augmentation coming out of these Federal 
reservoirs hour after hour, day after day during the droughts. 
In 2011, the Corps drew approximately 700,000 acre feet from 
storage and in 2012, 570,000 acre feet. When it comes to the 
effects of drought, these reservoirs unequivocally help, not 
hurt.
    There are similar misconceptions about the ACT. Unlike the 
Federal reservoirs in the ACF, those in the ACT Basin, 
Allatoona and Carters, encompass only a small portion, 17 
percent, of the total basin storage. The rest is in reservoirs 
in Alabama. Similar to Lanier, however, draining the reservoirs 
in Georgia will not solve the problems of drought.
    The 2006 and 2008 is instructive, State line flow from 
Georgia supported heavily by augmentation releases by Allatoona 
made up 80 to 90 percent of the flow target at Montgomery. Yet, 
as I noted, those reservoirs were only 17 percent of the 
storage.
    In reality, the downstream states and those downstream 
communities within Georgia, for that matter, have greatly 
benefited from the existence of these Federal reservoirs and 
the Corps' operation of them.
    We find ourselves in this dialog because Florida and 
Alabama naturally, in times of drought, would like more water. 
As I have mentioned, the Corps cannot eliminate all the effects 
of drought; it can, however, improve its operations to more 
optimally meet the needs of all stakeholders.
    Federal law provides the proper mechanism for the Corps to 
take up this balancing act and prepare that environmental 
impact statement that takes into account current and future 
operations and demands and to look at environmental, economic 
and socioeconomic effects of operating different scenarios and 
then use those studies to develop the plan.
    Once the water control manuals have been finalized with the 
attendant EIS work and NEPA analysis, you will have significant 
data and significant stakeholder impact. At that time, any 
aggrieved State can pursue whatever remedies it may have at 
law. There is no need for Congress to add to the regulatory 
framework or work to block what the courts have ruled to be 
legally required and badly needed.
    Whether you are a citizen of Alabama, Florida or Georgia, 
the best route to a long term, balanced solution is for the 
process and legal frameworks to be followed as the court has 
required by law.
    Thank you.
    [The prepared statement of Mr. Turner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sessions. Thank you, Mr. Turner.
    Mr. Munson from Florida.

STATEMENT OF GREGORY M. MUNSON, DEPUTY SECRETARY, WATER POLICY 
AND ECOSYSTEM RESTORATION, FLORIDA DEPARTMENT OF ENVIRONMENTAL 
                           PROTECTION

    Mr. Munson. Thank you, Chairman Sessions and members of the 
Committee. I am Greg Munson, Deputy Secretary of the Florida 
Department of Environmental Protection. I am responsible for 
water policy and ecosystem restoration, including the 
Apalachicola River and Bay for the State of Florida.
    I have submitted testimony for the record and would ask 
that it be included. I will only hit the high points of that 
testimony here today.
    Senator Sessions. It will be included and made a part of 
the record, without objection.
    Mr. Munson. Thank you, sir. Thank you for convening this 
important hearing about water management for the ACF and ACT 
river systems.
    My testimony is given to provide Florida's perspective on 
the effect of reduced freshwater inflows into the Apalachicola 
River and Bay and the injury to this important economic and 
environmental region in the State and the country.
    The Apalachicola River's flood plain ecosystem is the 
largest in Florida and the Apalachicola Bay is one of the most 
productive estuarine systems in the northern hemisphere. 
Hundreds of thousands of acres at the cost of millions of 
dollars have been acquired by Federal, State, local and private 
entities to protect this unique environment.
    Oysters and other local seafood are the lynchpin of the 
Apalachicola region's social and economic structure. 
Apalachicola Bay provides about 90 percent of Florida's oyster 
harvest and 10 percent of the national oyster harvest. It gives 
Florida the third largest shrimp harvest as well. The river is 
the life blood of this extraordinarily productive estuarine 
system and the productivity of the Bay is strongly influenced 
by the amount, timing and duration of the fresh water inflow 
from the Apalachicola River.
    The amount of water flowing into the river, and ultimately 
to the Bay, is a function of Georgia's consumption on the 
Chattahoochee and Flint Rivers and the Corps reservoir 
operations on the Chattahoochee. Since the 1970's, Georgia 
consumption has grown substantially in both systems and the 
Corps implemented its ``draft' Water Control Plan to prioritize 
municipal and industrial water supply operations elevating them 
above other uses in 1989.
    As a consequence, Apalachicola River flows have been lower 
and low flows have occurred more frequently and for longer 
durations than at any time in recorded history. In 2012, 
Florida experienced widespread damage to its oyster resources 
resulting from this prolonged low flow condition.
    Flows in 2012 were at their lowest since records were kept 
beginning in 1923 but this is not the year with the lowest 
rainfall. Oyster production estimates are the lowest in the 
past 20 years. In fact, the data suggests that many of the 
stocks are not sufficiently abundant to support commercial 
harvesting, devastating the livelihoods of the men and women 
who make their living directly harvesting or processing 
oysters.
    As a result, Governor Scott requested that the Secretary of 
the Department of Commerce declare a commercial fishery failure 
for Florida's oyster harvesting areas.
    Under the Corps' operations of Buford Dam and Lake Lanier 
the Corps has entered numerous contracts with Georgia water 
suppliers to permit withdrawals for municipal and industrial 
uses. In 1989, the Corps began prioritizing operations to 
support this water supply demand which has increased 
dramatically.
    Under the Corps' operating schedule, each new demand placed 
on the system upstream is absorbed, not from reservoir storage, 
but entirely from downstream river flows. In other words, every 
acre foot of water Georgia wants is taken directly from flows 
that would otherwise reach Alabama and Florida.
    These practices have deprived downstream interests of basic 
river flow needs, despite the empirical evidence that such 
operations are devastating Apalachicola Bay and its oyster 
population. It is clear that the Apalachicola River needs more 
flow to help recover from the devastating oyster mortality in 
the Bay that occurred in 2012, as well as the previous massive 
die-offs of endangered mussels, decline in fisheries and drying 
of the floodplain forest that has occurred in recent years.
    The Corps' plan to develop a master manual presents an 
opportunity to restructure its present priority system as 
reflected in the existing Draft Water Control Manual and assign 
greater weight to downstream needs. The Corps can no longer 
assume that all needs can be met without proactively insisting 
on upstream conservation.
    At a minimum, the Corps should mandate that Georgia develop 
strict conservation measures as a condition to entertaining any 
further withdrawals from the ACF system.
    Thank you for the chance to talk to you today about one of 
Florida's most precious resources, the Apalachicola River and 
Bay. If you are ever able to visit Apalachicola, Florida, we 
would always be happy to host you and give you the oysters that 
are still left in the Bay so you can understand how unique that 
environment is to Florida and Floridians.
    I am happy to answer any questions. Thank you.
    [The prepared statement of Mr. Munson follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Sessions. Thank you, Mr. Munson.
    They do pretty well competing with Bon Secour oysters from 
Alabama. I have been there and have fished in the Bay.
    Mr. Atkins, Alabama does not want to stop all withdrawal of 
water from Georgia. What do you want and would you articulate 
for us what you think a proper solution to this water problem 
is?
    Mr. Atkins. No, Alabama does not want to turn off the tap 
for all drinking water usage at Lake Lanier and Lake Allatoona. 
So long as Alabama gets its historical amounts in terms of the 
amount of water that it has always had flowing in its rivers, 
then Atlanta simply can drink as much as it wants.
    However, that is going to result in lower elevations at the 
two reservoirs, but Georgia cannot realistically expect to 
increase its drinking water usage and maintain those reservoir 
elevation levels in the two reservoirs.
    The only way for both those things to happen would be if 
downstream flows are cut back and Alabama just cannot accept 
that.
    Senator Sessions. With regard to the Corps of Engineers, 
are there things they can do to help the States reach an 
accord, without going into detail because there have been 
ongoing discussions between the States for a number of years? 
Has resolution of the matter by agreement been hampered by some 
of the Corps' actions, in your opinion?
    Mr. Atkins. I would say yes in answer to that. The issue 
with the Corps is that the Corps must follow the law. That 
means they need to follow the law as established by the Water 
Supply Act by seeking congressional approval for the major 
water supply uses and Federal reservoirs.
    Second, they need to enforce limits of the storage 
contracts, the contracts that allocate the storage space in the 
reservoir for water supply. Once they do that, if they will 
stay out of the way, then I think that will create an 
opportunity for the States to be able to get together. 
Otherwise, as it stands now, there is no incentive for Georgia 
to try to make a deal because the Corps is basically providing 
everything they want.
    By the Corps getting out of the way, letting the States 
have the opportunity to talk to each other and negotiate in 
good faith, I think that would be the best chance for that.
    Senator Sessions. I have talked to Governor Bentley about 
it. I know he cares about this issue deeply and he is a good 
and decent man. I believe he is willing to make an agreement 
but it has to be one that he can justify to the long term 
interests of the people of Alabama. It has just been difficult.
    Mr. Turner, after Judge Magnuson's ruling in 2009, it 
appeared there was a setback for the Georgia interests. Atlanta 
interests did a study showing that in little more than a 
decade, Atlanta could get by without water supply usage from 
Lake Lanier if it spent maybe $2 billion on infrastructure and 
took other actions.
    At more than $272 billion a year, Atlanta has the tenth 
largest GDP among all U.S. cities, for which I congratulate 
you. It is a fabulous city. The city plans to build a billion 
dollar football stadium for the Falcons; why shouldn't Atlanta 
spend some more of its money on infrastructure rather than ask 
downstream communities to deal with severe impacts of low water 
that could cause them to have to spend more money as a result?
    Mr. Turner. Senator, I take from your question when you 
refer to Atlanta, you mean the metro Atlanta region. We are 
spending and will spend and have spent significant State 
resources. Cobb County, one of the municipalities with an issue 
with respect to their withdrawal contract from Allatoona, spent 
$100 million with the city of Canton on the Hickory Log Creek 
Reservoir trying to provide for that additional storage that 
could benefit, frankly, all of us downstream and upstream.
    Governor Deal, when he came in having lived this issue for 
years as a Congressman from the Lake Lanier area, understood 
this clearly. Georgia is well on the way to appropriating the 
$300 million he pledged under the Governor's Water Supply 
Program to bring on strategically additional storage so that we 
can share that in times of drought and catch it in times like 
right now when there is plenty.
    Those things are happening, have happened and will continue 
to happen with vigor. I think I know the study you referenced 
and we certainly viewed it differently than you did. I think 
replacement of Lanier, when you consider environment impacts 
and what it means when you have a very large main stem 
reservoir that we don't build anymore in this Country, to take 
that amount of storage and act like you are going to make none 
of it available for water supply would have been a travesty, a 
waste of the resource and I am glad we are not in that boat 
anymore and that we are talking about what is the right way to 
balance these authorized legal purposes for these Federal 
reservoirs.
    Senator Sessions. I agree. I don't think it would be 
necessary to go to zero but I do think there are alternatives 
as that study showed.
    Senator Boozman, thank you for attending and for your good 
work on all these issues.
    Senator Boozman. Thank you, Mr. Chairman. I enjoyed the 
testimony.
    Thank you for being here. It has been very helpful.
    Senator Sessions. Mr. Munson, a former Governor of Georgia 
described the dispute over the ACF Basin as involving people 
versus a few mussels. Is that what this is about? What does 
Florida want fundamentally?
    Mr. Munson. No, sir, it is not about just a few mussels, 
not that I want to give away even a few of the endangered 
mussels. It is about a lot more than some endangered mussels. 
It is really about a way of life in Franklin County, Florida 
and the people who have spent generations there farming oysters 
and engaging in other forms of commercial fishing.
    Basically, they are being asked to bear the brunt of the 
growth of Atlanta and other upstream interests in Georgia, 
meanwhile watching their way of life get taken apart. It is not 
about a few mussels; it is about a whole way of life in a very 
rural county, Franklin County, Florida.
    All we really seek is an equitable share of the waters of 
the ACF system. We don't want to take everything, but there is 
a unique way of life being driven to extinction in 
Apalachicola. We would start with commitment from the Corps 
that it will not entertain anymore requests from the State of 
Georgia for water supply contracts unless and until it sees 
some verifiable commitments to water conservation measures from 
that State.
    Even that, of course, will not do it. There are many things 
Georgia will need to undertake on its own besides what the Army 
Corps can accomplish by itself, but that would be a very good 
start.
    Senator Sessions. Mr. Turner suggested that water supply 
use in north Georgia is a drop in the bucket compared to flows 
into Apalachicola. How would you respond to that concern?
    Mr. Munson. I was not familiar with Mr. Turner's numbers. I 
was struck a little like the oak tree telling the maple tree to 
be happy in our shade. I think that is what I took from it.
    In fact, I think the comparison is meaningless. The truth 
is that the depletions throughout Georgia, including Atlanta 
and the rest of Georgia, take over half the total basin inflow 
of the ACF river system in times of drought. That is really the 
dry period, I should say, not necessarily just drought. That is 
the time period on which we are most focused.
    To look outside that timeframe doesn't shed a lot of light 
on the system. When there is plenty of water in the system, 
there is plenty for everyone. It is during the dry periods that 
Florida needs that equitable share.
    Senator Sessions. Mr. Atkins, with regard to augmentation, 
that was the purpose of the reservoirs, was it not? You don't 
get as much augmentation if the water has been drawn out to be 
consumed as you could get if it were not drawn, it seems to me. 
Would you comment on that?
    Mr. Atkins. The purpose of reservoirs, generally, is to 
store water during times of the year when you have high flows, 
store that water and generally at the drier times of the year, 
lower flow periods, you release that water to help provide 
flows downstream.
    Senator, may I ask permission to submit for the record the 
Corps' 2007 letter to Cobb County-Marietta Water Authority 
about their contract excedence? I forgot to mention that 
earlier.
    Senator Sessions. Can you share the key point of that?
    Mr. Atkins. It is the Corps' letter they wrote in late 2007 
recognizing the excedences from the Cobb County-Marietta Water 
Authority storage contract and the results of their analyses. 
They acknowledged that there were excedences as far as what 
they had withdrawn in relation to the contract.
    You mentioned earlier the contract being 13,000 acre feet. 
The excedence had been up to 39,000 acre feet. We would like to 
introduce that.
    Senator Sessions. I would be glad to accept that and we 
will make it a part of the record, without objection.
    [The referenced information was not received at time of 
print.]
    Senator Sessions. Mr. Munson, as an official in the State 
of Florida, can you tell the Committee that Florida is serious 
about working in good faith toward achieving an interState 
compact?
    Mr. Munson. Florida would be interested in doing that. 
Obviously that requires some engagement by the other parties as 
well. Although we have taken a number of efforts at it over the 
years, no such compact has been readily available. I don't 
believe that is going to change but of course, we would always 
be happy to have a negotiated compact as a result.
    Senator Sessions. Don't you think that would be the 
preferable way to solve this dispute, if it could be achieved?
    Mr. Munson. If it could be fair to the people of Florida, 
then absolutely.
    Senator Sessions. Mr. Turner, is Georgia prepared to work 
with the other States to achieve a mutually agreeable solution 
to this difficult problem?
    Mr. Turner. Yes, sir. Governor Deal has been clear on that 
point since he has been in office. I would even say where there 
is a will there is a way. We do not live in the arid west. We 
do get times like now which are plenty and we are open to those 
conversations and will get to work on them. I am instructed to 
participate in that way from Governor Deal.
    I do not think it ought to stop the work the Corps is, by 
law, obligated to do under these water control manual updates. 
Therefore, that should progress, irrespective of what continues 
to happen between the State conversations.
    Senator Sessions. Mr. Atkins, would you believe Governor 
Bentley is committed to trying to reach an agreement that could 
solve this problem permanently?
    Mr. Atkins. Absolutely, Senator. Again, I think the biggest 
obstacle is the Corps of Engineers as far as their actions and 
their role in this. If they would simply stay out of this, if 
they will follow the law according to the Water Supply Act and 
enforce the storage contracts, I think that will definitely 
help things.
    Senator Sessions. Thank all of you for your testimony. You 
have to know that maybe other Senators do not feel the problems 
of Alabama, Georgia and Florida as the Senators from these 
three States do but it is a very real situation.
    Senators Chambliss and Isakson, thank you for your 
attendance and thank you for being engaged in this and being 
knowledgeable about it. We have been able to work together and 
I hope we can continue to do that.
    We will have 2 weeks for all members to submit questions 
for the record. I have exhibits I have offered dealing with the 
history of these reservoirs and the impact of policies since 
then. I also have congressional correspondence about the ACF 
and the ACT issues of which we received a good bit.
    Senators Chambliss or Isakson, is there anything you would 
like to add before we finish? I thank you for your attendance.
    Senator Chambliss. Thank you very much for a fair hearing 
today, Senator Sessions. I do have our joint statement that we 
will submit to you for the record.
    Senator Sessions. We will make it a part of the record, 
without objection.
    If there is nothing further to come before the Committee, 
we are adjourned.
    [Whereupon, at 4:25 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
                                 [all]
</pre></body></html>
